No. _______

IN THE
SUPREME COURT OF THE UNITED STATES
___________
DAVID LEE GARRETT,
Petitioner
v.
UNITED STATES OF AMERICA
Respondent
___________
APPENDIX
___________

INDEX TO APPENDICES
Appendix A Judgment and Opinion of Fifth Circuit
Appendix B Judgment and Sentence of the United States District Court for the
Northern District of Texas
Appendix C Order of the United States District Court for the Northern District of
Texas Staying Resentencing Proceedings

APPENDIX A

IN THE UNITED STATES COURT OF APPEALS
United States Court of Appeals
FOR THE FIFTH CIRCUIT
Fifth Circuit

FILED
June 25, 2020

No. 17-10516
Summary Calendar

Lyle W. Cayce
Clerk

UNITED STATES OF AMERICA,
Plaintiff - Appellant Cross-Appellee
v.
DAVID LEE GARRETT,
Defendant - Appellee Cross-Appellant
Appeals from the United States District Court
for the Northern District of Texas
USDC No. 3:16-CR-107-1
Before JOLLY, JONES, and SOUTHWICK, Circuit Judges.
PER CURIAM:*
David Lee Garrett pleaded guilty to possession of a firearm by a felon in
violation of 18 U.S.C. § 922(g)(1) and was sentenced under 18 U.S.C. § 924(a)(2)
to 84 months of imprisonment and three years of supervised release. Although
the district court determined that Garrett’s two prior convictions for burglary
of a habitation under Texas Penal Code § 30.02(a) qualified as violent felonies
under the Armed Career Criminal Act (ACCA), 18 U.S.C. § 924(e), the court

Pursuant to 5TH CIR. R. 47.5, the court has determined that this opinion should not
be published and is not precedent except under the limited circumstances set forth in 5 TH
CIR. R. 47.5.4.
*

No. 17-10516
agreed with Garrett that his prior conviction for robbery under Texas Penal
Code § 29.02 did not meet the statutory definition of “violent felony.”
On appeal, the Government contends that Garrett’s sentence should be
vacated and the case remanded for resentencing because now-binding
precedent holds that Texas robbery is a violent felony under § 924(e). See
United States v. Burris, 920 F.3d 942, 945, 948 & n.31 (5th Cir. 2019), petition
for cert. filed (U.S. Oct. 3, 2019) (No. 19-6186). Garrett cross-appeals, arguing
that his conviction should be reversed because § 922(g)(1) is facially
unconstitutional and further that Texas robbery does not qualify as a violent
felony under the ACCA. Alternatively, Garrett argues that his non-ACCA
sentence should be affirmed because Texas burglary is not generic burglary
and thus does not qualify as a violent felony. See § 924(e)(2)(B)(ii). He concedes
that his first two arguments are foreclosed, and he raises those arguments to
preserve them for further review.

The Government, in turn, moves for

summary affirmance as to the judgment of conviction, and it moves for
summary disposition, or vacatur, as to the sentence imposed.
Summary affirmance or disposition is proper where, among other
instances, “the position of one of the parties is clearly right as a matter of law
so that there can be no substantial question as to the outcome of the case.”
Groendyke Transp., Inc. v. Davis, 406 F.2d 1158, 1162 (5th Cir. 1969).
Garrett’s argument that § 922(g)(1) is unconstitutional because it exceeds the
scope of Congress’s power under the Commerce Clause is foreclosed.

See

United States v. Alcantar, 733 F.3d 143, 146 (5th Cir. 2013); United States v.
De Leon, 170 F.3d 494, 499 (5th Cir. 1999). Accordingly, summary affirmance
of his conviction is proper. See Groendyke Transp., Inc., 406 F.2d at 1162.
In addition, the sentencing issues presented on appeal and cross-appeal
are foreclosed by United States v. Herrold, 941 F.3d 173, 182 (5th Cir. 2019)

2

No. 17-10516
(en banc), petition for cert. filed (U.S. Feb. 18, 2020) (No. 19-7731), and Burris,
920 F.3d at 945, 948 & n.31. In Burris, this court concluded that robbery-bythreat and robbery-by-injury under Texas Penal Code § 29.02 both require the
“use, attempted use, or threatened use of physical force” and are violent
felonies under § 924(e)(2)(B)(i)’s force clause. Burris, 920 F.3d at 945, 948
& n.31 (quotation at 945) (internal quotation marks omitted). In Herrold, this
court held that Texas burglary is “generic burglary” and is a violent felony
under the ACCA. Herrold, 941 F.3d at 182. Thus, the argument that Garrett’s
Texas robbery and burglary convictions are not violent felonies is foreclosed by
current circuit precedent, and summary disposition, or vacatur, is appropriate.
See Groendyke Transp., Inc., 406 F.2d at 1162.
In light of the foregoing, the Government’s motion for summary
affirmance and for summary disposition is GRANTED. The Government’s
alternative motion for an extension of time to file a brief is DENIED. Garrett’s
conviction is AFFIRMED, his sentence is VACATED, and the case is
REMANDED for resentencing.

3

APPENDIX B

Case 3:16-cr-00107-L Document 49 Filed 04/28/17

Page 1 of 8 PageID 348

UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF TEXAS DALLAS DIVISION

UNITED STATES OF AMERICA

JUDGMENT IN A CRIMINAL CASE

v.
Case Number: 3:16-CR-00107-L(1)
USM Number: 54061-177
Stephen James Green

DAVID LEE GARRETT

Defendant’s Attorney

THE DEFENDANT:
☐ pleaded guilty to count(s)
pleaded guilty to count(s) before a U.S.

☒ Magistrate Judge, which was accepted by the
☐
☐

court.
pleaded nolo contendere to count(s) which was
accepted by the court
was found guilty on count(s) after a plea of not
guilty

Count 1 of the Indictment filed March 23, 2016.

The defendant is adjudicated guilty of these offenses:
Title & Section / Nature of Offense
18:922(g)(1) and 924(e) Felon In Possession Of A Firearm

Offense Ended

Count

12/31/2015

1

The defendant is sentenced as provided in pages 2 through 8 of this judgment. The sentence is imposed pursuant to the Sentencing
Reform Act of 1984.

☐ The defendant has been found not guilty on count(s)
☐ Count(s) ☐ is ☐ are dismissed on the motion of the United States
It is ordered that the defendant must notify the United States attorney for this district within 30 days of any change of name,
residence, or mailing address until all fines, restitution, costs, and special assessments imposed by this judgment are fully paid. If
ordered to pay restitution, the defendant must notify the court and United States attorney of material changes in economic
circumstances.

April 27, 2017
Date of Imposition of Judgment

Signature of Judge

Sam A. Lindsay, United States District Judge
Name and Title of Judge

April 28, 2017
Date

Case 3:16-cr-00107-L Document 49 Filed 04/28/17

Page 2 of 8 PageID 349

AO 245B (Rev. TXN 11/16) Judgment in a Criminal Case

DEFENDANT:
CASE NUMBER:

Judgment -- Page 2 of 8

DAVID LEE GARRETT
3:16-CR-00107-L(1)

IMPRISONMENT
Pursuant to the Sentencing Reform Act of 1984, but taking the Guidelines as advisory pursuant to United States v. Booker, and considering the
factors set forth in 18 U.S.C. Section 3553(a), the defendant is hereby committed to the custody of the United States Bureau of Prisons to be
imprisoned for a term of: Eighty-four (84) months as to Count 1. This sentence shall run concurrently with any sentences

imposed in Case Nos. F-1518376, F-1518378, and F-1518377, pending in District Court 2 of Dallas County. This sentence shall
run consecutively to any sentences imposed for parole revocations in Case Nos. F-1162737-T and F-1059262, in the 283rd
Judicial District Court of Dallas County.

☒ The court makes the following recommendations to the Bureau of Prisons:
The court recommends that Defendant be allowed to serve his sentence at FCI, Seagoville, if he is eligible.

☒ The defendant is remanded to the custody of the United States Marshal.
☐ The defendant shall surrender to the United States Marshal for this district:
☐ at

☐

☐

a.m.

p.m.

on

☐ as notified by the United States Marshal.
☐ The defendant shall surrender for service of sentence at the institution designated by the Bureau of Prisons:
☐ before 2 p.m. on
☐ as notified by the United States Marshal.
☐ as notified by the Probation or Pretrial Services Office.

RETURN
I have executed this judgment as follows:

Defendant delivered on

at

to

, with a certified copy of this judgment.

UNITED STATES MARSHAL

By
DEPUTY UNITED STATES MARSHAL

Case 3:16-cr-00107-L Document 49 Filed 04/28/17

Page 3 of 8 PageID 350

AO 245B (Rev. TXN 11/16) Judgment in a Criminal Case

DEFENDANT:
CASE NUMBER:

Judgment -- Page 3 of 8

DAVID LEE GARRETT
3:16-CR-00107-L(1)

SUPERVISED RELEASE
Upon release from imprisonment, the defendant shall be on supervised release for a term of : Three (3) years.

MANDATORY CONDITIONS
1.

You must not commit another federal, state or local crime.

2.

You must not unlawfully possess a controlled substance.

3.

You must refrain from any unlawful use of a controlled substance. You must submit to one drug test within 15 days of
release from imprisonment and at least two periodic drug tests thereafter, as determined by the court.
☐ The above drug testing condition is suspended, based on the court's determination that you
pose a low risk of future substance abuse. (check if applicable)

☒ You must cooperate in the collection of DNA as directed by the probation officer. (check if applicable)
5. ☐ You must comply with the requirements of the Sex Offender Registration and Notification Act (42 U.S.C. § 16901, et
4.

seq.)
as directed by the probation officer, the Bureau of Prisons, or any state sex offender registration agency in which you
reside, work,are a student, or were convicted of a qualifying offense. (check if applicable)
6.

☐ You must participate in an approved program for domestic violence. (check if applicable)

You must comply with the standard conditions that have been adopted by this court as well as with any other conditions on the
attached page.

Case 3:16-cr-00107-L Document 49 Filed 04/28/17

Page 4 of 8 PageID 351

AO 245B (Rev. TXN 11/16) Judgment in a Criminal Case

DEFENDANT:
CASE NUMBER:

Judgment -- Page 4 of 8

DAVID LEE GARRETT
3:16-CR-00107-L(1)

STANDARD CONDITIONS OF SUPERVISION
As part of your supervised release, you must comply with the following standard conditions of supervision. These conditions are
imposed because they establish the basic expectations for your behavior while on supervision and identify the minimum tools needed
by probation officers to keep informed, report to the court about, and bring about improvements in your conduct and condition.
1. You must report to the probation office in the federal judicial district where you are authorized to reside within 72 hours of your
release from imprisonment, unless the probation officer instructs you to report to a different probation office or within a different time
frame.
2. After initially reporting to the probation office, you will receive instructions from the court or the probation officer about how and
when you must report to the probation officer, and you must report to the probation officer as instructed.
3. You must not knowingly leave the federal judicial district where you are authorized to reside without first getting permission from
the court or the probation officer.
4. You must answer truthfully the questions asked by your probation officer.
5. You must live at a place approved by the probation officer. If you plan to change where you live or anything about your living
arrangements (such as the people you live with), you must notify the probation officer at least 10 days before the change. If notifying
the probation officer in advance is not possible due to unanticipated circumstances, you must notify the probation officer within 72
hours of becoming aware of a change or expected change.
6. You must allow the probation officer to visit you at any time at your home or elsewhere, and you must permit the probation officer
to take any items prohibited by the conditions of your supervision that he or she observes in plain view.
7. You must work full time (at least 30 hours per week) at a lawful type of employment, unless the probation officer excuses you from
doing so. If you do not have full-time employment you must try to find full-time employment, unless the probation officer excuses
you from doing so. If you plan to change where you work or anything about your work (such as your position or your job
responsibilities), you must notify the probation officer at least 10 days before the change. If notifying the probation officer at least 10
days in advance is not possible due to unanticipated circumstances, you must notify the probation officer within 72 hours of
becoming aware of a change or expected change.
8. You must not communicate or interact with someone you know is engaged in criminal activity. If you know someone has been
convicted of a felony, you must not knowingly communicate or interact with that person without first getting the permission of the
probation officer.
9. If you are arrested or questioned by a law enforcement officer, you must notify the probation officer within 72 hours.
10. You must not own, possess, or have access to a firearm, ammunition, destructive device, or dangerous weapon (i.e., anything that
was designed, or was modified for, the specific purpose of causing bodily injury or death to another person such as nunchakus or
tasers).
11. You must not act or make any agreement with a law enforcement agency to act as a confidential human source or informant
without first getting the permission of the court.
12. If the probation officer determines that you pose a risk to another person (including an organization), the probation officer may
require you to notify the person about the risk and you must comply with that instruction. The probation officer may contact the
person and confirm that you have notified the person about the risk.
13. You must follow the instructions of the probation officer related to the conditions of supervision.

U.S. Probation Office Use Only
A U.S. probation officer has instructed me on the conditions specified by the court and has provided me with a
written copy of this judgment containing these conditions. I understand additional information regarding these
conditions is available at www.txnp.uscourts.gov.
Defendant’s Signature

Date

Case 3:16-cr-00107-L Document 49 Filed 04/28/17

Page 5 of 8 PageID 352

AO 245B (Rev. TXN 11/16) Judgment in a Criminal Case

DEFENDANT:
CASE NUMBER:

Judgment -- Page 5 of 8

DAVID LEE GARRETT
3:16-CR-00107-L(1)

SPECIAL CONDITIONS OF SUPERVISION
The defendant shall participate in mental health treatment services as directed by the probation officer
until successfully discharged. These services may include medications prescribed by a licensed physician.
The defendant shall contribute to the costs of services rendered (copayment) at a rate of at least $10 per
month.
The defendant shall participate in a program (inpatient and/or outpatient) approved by the U.S. Probation
Office for treatment of narcotic, drug, or alcohol dependency, which will include testing for the detection
of substance use or abuse. The defendant shall abstain from the use of alcohol and/or all other intoxicants
during and after completion of treatment. The defendant shall contribute to the costs of services rendered
(copayment) at a rate of at least $10 per month.

Case 3:16-cr-00107-L Document 49 Filed 04/28/17

Page 6 of 8 PageID 353

AO 245B (Rev. TXN 11/16) Judgment in a Criminal Case

DEFENDANT:
CASE NUMBER:

Judgment -- Page 6 of 8

DAVID LEE GARRETT
3:16-CR-00107-L(1)

CRIMINAL MONETARY PENALTIES
The defendant must pay the total criminal monetary penalties under the schedule of payments on Sheet 6.
Assessment
JVTA Assessment*
Fine
$100.00
$.00
$.00
TOTALS

Restitution
$.00

☐ The determination of restitution is deferred until

An Amended Judgment in a Criminal Case
(AO245C) will be entered after such determination.
The defendant must make restitution (including community restitution) to the following payees in
the amount listed below.

The defendant must make restitution (including community restitution) to the following payees in the
amount listed below.
If the defendant makes a partial payment, each payee shall receive an approximately proportioned payment. However, pursuant to 18 U.S.C.
§ 3664(i), all nonfederal victims must be paid before the United States is paid.

☐ Restitution amount ordered pursuant to plea agreement $
☐ The defendant must pay interest on restitution and a fine of more than $2,500, unless the restitution or fine is paid in full before
☐

the fifteenth day after the date of the judgment, pursuant to 18 U.S.C. § 3612(f). All of the payment options on Sheet 6 may be
subject to penalties for delinquency and default, pursuant to 18 U.S.C. § 3612(g).
The court determined that the defendant does not have the ability to pay interest and it is ordered that:
☐ the interest requirement is waived for the
☐ fine
☐ restitution

☐ the interest requirement for the

☐ fine

☐ restitution is modified as follows:

* Justice for Victims of Trafficking Act of 2015, Pub. L. No. 114-22
** Findings for the total amount of losses are required under Chapters 109A, 110, 110A, and 113A of Title 18 for offenses committed on or after
September 13, 1994, but before April 23, 1996.

Case 3:16-cr-00107-L Document 49 Filed 04/28/17

Page 7 of 8 PageID 354

AO 245B (Rev. TXN 11/16) Judgment in a Criminal Case

DEFENDANT:
CASE NUMBER:

Judgment -- Page 7 of 8

DAVID LEE GARRETT
3:16-CR-00107-L(1)

SCHEDULE OF PAYMENTS
Having assessed the defendant’s ability to pay, payment of the total criminal monetary penalties is due as follows:
A

☐ Lump sum payments of $

due immediately, balance due

☐ not later than
☐ in accordance

, or

☐

C,

☐

D,

B

☐ Payment to begin immediately (may be combined with

C

☐ Payment in equal

☐

E, or

☐

F below; or

☐

C,

☐

D, or

☐

(e.g., weekly, monthly, quarterly) installments of $
(e.g., months or years), to commence

F below); or

over a period of

(e.g., 30 or 60 days) after the date of this judgment;

or
D

☐ Payment in equal 20 (e.g., weekly, monthly, quarterly) installments of $
(e.g., months or years), to commence
imprisonment to a term of supervision; or

over a period of

(e.g., 30 or 60 days) after release from

E

☐ Payment during the term of supervised release will commence within

F

☒ Special instructions regarding the payment of criminal monetary penalties:

(e.g., 30 or 60 days) after release
from imprisonment. The court will set the payment plan based on an assessment of the defendant’s ability to pay at that
time; or

It is ordered that the Defendant shall pay to the United States a special assessment of $100.00 for Count 1 which
shall be due immediately. Said special assessment shall be paid to the Clerk, U.S. District Court.
Unless the court has expressly ordered otherwise, if this judgment imposes imprisonment, payment of criminal monetary penalties is
due during imprisonment. All criminal monetary penalties, except those payments made through the Federal Bureau of Prisons’
Inmate Financial Responsibility Program, are made to the clerk of the court.
The defendant shall receive credit for all payments previously made toward any criminal monetary penalties imposed.

☐ Joint and Several
See above for Defendant and Co-Defendant Names and Case Numbers (including defendant number), Total Amount, Joint and
Several Amount, and corresponding payee, if appropriate.

☐ Defendant shall receive credit on his restitution obligation for recovery from other defendants who contributed to the same
loss that gave rise to defendant's restitution obligation.

☐ The defendant shall pay the cost of prosecution.
☐ The defendant shall pay the following court cost(s):
☐ The defendant shall forfeit the defendant’s interest in the following property to the United States:

Payments shall be applied in the following order: (1) assessment, (2) restitution principal, (3) restitution interest, (4) fine principal,
(5) fine interest, (6) community restitution, (7) JVTA Assessment, (8) penalties, and (9) costs, including cost of prosecution and court costs.

Case 3:16-cr-00107-L Document 49 Filed 04/28/17

Page 8 of 8 PageID 355

AO 245B (Rev. TXN 11/16) Judgment in a Criminal Case

DEFENDANT:
CASE NUMBER:

Judgment -- Page 8 of 8

DAVID LEE GARRETT
3:16-CR-00107-L(1)

ADDITIONAL FORFEITED PROPERTY
Pursuant to 18 U.S.C. §924(d) and 28 U.S.C. §2461(c), the following property is forfeited to the United States
of America:

a Smith and Wesson, Model SW40V, .40 caliber handgun, bearing serial number PAU0721,
and all ammunition recovered.

APPENDIX C

Case 3:16-cr-00107-L Document 69 Filed 10/02/20

Page 1 of 1 PageID 532

IN THE UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF TEXAS
DALLAS DIVISION
UNITED STATES OF AMERICA
v.
DAVID LEE GARRETT

§
§
§
§
§

Criminal No. 3:16-CR-107-L

ORDER
Before the court is Defendant’s Motion to Stay Resentencing Proceedings (Doc. 66), filed
August 21, 2020. In response, the Government indicates its opposition in part to Defendant’s
motion. The Government objects to Defendant’s motion to the extent it is based on United States
v. Herrold, 941 F.3d 173 (5th Cir. 2019), but it does not object to the motion to the extent the
requested stay is based on United States v Burris, 920 F.3d 942 (5th Cir. 2019), because an issue
related to Texas’s robbery statute is under review by the Supreme Court and may affect resentencing
in this case. As both parties agree that there an outstanding legal issue that may affect Defendant’s
resentencing, the court grants Defendant’s Motion to Stay Resentencing Proceedings (Doc. 66) and
stays the resentencing of Defendant pending resolution of the appeal in Burris.
It is so ordered this 2nd day of October, 2020.

_________________________________
Sam A. Lindsay
United States District Judge

Order - Solo Page

